Case: 19-17068, 06/30/2020, ID: 11738905, DktEntry: 3, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
JUN 30 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

WILLIE R. LEWIS,
Petitioner-Appellant,
v.

ROBERT LEGRAND, Warden;
ATTORNEY GENERAL FOR THE STATE
OF NEVADA,

No.

19-17068

D.C. No. 2:10-cv-01225-GMN-DJA
District of Nevada,
Las Vegas
ORDER

Respondents-Appellees.
Before:

WARDLAW and BENNETT, Circuit Judges.

The request for a certificate of appealability (Docket Entry No. 2) is denied
because appellant has not shown that “jurists of reason would find it debatable
whether the petition states a valid claim of the denial of a constitutional right and
that jurists of reason would find it debatable whether the district court was correct
in its procedural ruling.” Slack v. McDaniel, 529 U.S. 473, 484 (2000); see also 28
U.S.C. § 2253(c)(2); Gonzalez v. Thaler, 565 U.S. 134, 140-41 (2012); Miller-El v.
Cockrell, 537 U.S. 322, 327 (2003).
Any pending motions are denied as moot.
DENIED.

Case 2:10-cv-01225-GMN-DJA Document 109 Filed 11/24/20 Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
NOV 24 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

WILLIE R. LEWIS,

No.

Petitioner-Appellant,

19-17068

D.C.No. 2:10-cv-01225-GMN-DJA
District of Nevada,
Las Vegas

v.

ROBERT LEGRAND, Warden;
ORDER
ATTORNEY GENERAL FOR THE STATE
OF NEVADA,
Respondents-Appellees.
Before:

IKUTA and MILLER, Circuit Judges.

Appellant has filed a combined motion for reconsideration and motion for
reconsideration en banc (Docket Entry No. 13).
The motion for reconsideration is denied and the motion for reconsideration
en banc is denied on behalf of the court. See 9th Cir. R. 27-10; 9th Cir. Gen. Ord
6.11.
No further filings will be entertained in this closed case.

;

3ase 2:10-cv-01225-GMN-DJA Document 104 Filed 09/18/19 Page 1 of 17

1
2
3
4
5
6

UNITED STATES DISTRICT COURT

7

DISTRICT OF NEVADA

8

***

9

Case No. 2:10-cv-01225-GMN-CWH

WILLIE RAY LEWIS
Petitioner,

10

ORDER

v.

11
STATE OF NEVADA, et al.

12
Respondents.

13
Willie Ray Lewis’ 28 U.S.C. § 2254 habeas corpus petition is before the court for

14
15

final adjudication on the merits. As discussed below, his petition is denied.

16

I.

17

Willie Ray Lewis was convicted pursuant to a jury trial of multiple counts involving

Procedural History and Background

18

his two daughters of lewdness with a minor under the age of 14, sexual assault of a

19

minor under 16 years of age, and attempted sexual assault of a minor under 16 years of

20

age (exhibit 29).1 The Nevada Supreme Court on direct appeal concluded that

21

insufficient evidence was presented to support 34 counts, and an amended judgment of

22

conviction was entered. Exhs. 24, 29. While not entirely clear from the state-court

23

record provided, the Nevada Department of Corrections inmate information reflects that

24

Lewis is currently serving an aggregate sentence of life with the possibility of parole

25

after 40 years.

26
27
28

1 Exhibits 1-77 referenced in this order are exhibits to petitioner's third-amended petition, ECF No. 29, and
are found at ECF Nos. 30-40. Exhibits 78-93 are exhibits to petitioner's fourth-amended petition, ECF No.
43, and are found at ECF No. 79.

1

3ase 2:10-cv-01225-GMN-DJA Document 104 Filed 09/18/19 Page 2 of 17

1
2
3
4
5
6
7
8

The Nevada Supreme Court affirmed the denial of Lewis’ state postconviction
habeas corpus petition in part and reversed and remanded in part. Exh. 35. The state
supreme court ordered the district court to consider whether appointment of counsel
was appropriate and directed the district court to conduct an evidentiary hearing with
respect to whether defense counsel should have interviewed certain witnesses. Id. The
state district court did not appoint counsel, held an evidentiary hearing, denied the
petition, and the Nevada Supreme Court affirmed the denial of the petition. Exhs. 45,
47, 55.

9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27

Lewis filed a second proper person state postconviction habeas petition; the Nevada
Supreme Court affirmed the dismissal of the petition as successive and untimely. Exh.
63.
This court appointed counsel for Lewis’ federal habeas corpus petition.
Respondents have now answered his fourth-amended petition, and Lewis replied (ECF
Nos. 43, 98, 100).
Antiterrorism and Effective Death Penalty Act

II.

28 U.S.C. § 2254(d), a provision of the Antiterrorism and Effective Death Penalty
Act (AEDPA), provides the legal standards for this court’s consideration of the petition in
this case:
An application for a writ of habeas corpus on behalf of a person in
custody pursuant to the judgment of a State court shall not be granted with
respect to any claim that was adjudicated on the merits in State court
proceedings unless the adjudication of the claim —

(D resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law, as determined
by the Supreme Court of the United States; or
resulted in a decision that was based on an unreasonable
(2)
determination of the facts in light of the evidence presented in the State
court proceeding.
The AEDPA “modified a federal habeas court’s role in reviewing state prisoner
applications in order to prevent federal habeas ‘retrials’ and to ensure that state-court

28
2

3ase 2:10-cv-01225-GMN-DJA Document 104 Filed 09/18/19 Page 3 of 17

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27

convictions are given effect to the extent possible under law.” Bell v. Cone, 535 U.S.
685, 693-694 (2002). This Court’s ability to grant a writ is limited to cases where “there
is no possibility fair-minded jurists could disagree that the state court’s decision conflicts
with [Supreme Court] precedents.” Harrington v. Richter, 562 U.S. 86, 102 (2011). The
Supreme Court has emphasized “that even a strong case for relief does not mean the
state court's contrary conclusion was unreasonable.” Id. (citing Lockyer v. Andrade, 538
U.S. 63, 75 (2003)); see also Cullen v. Pinholster, 563 U.S. 170, 181 (2011) (describing
the AEDPA standard as “a difficult to meet and highly deferential standard for evaluating
state-court rulings, which demands that state-court decisions be given the benefit of the
doubt”) (internal quotation marks and citations omitted).
A state court decision is contrary to clearly established Supreme Court
precedent, within the meaning of 28 U.S.C. § 2254, “if the state court applies a rule that
contradicts the governing law set forth in [the Supreme Court’s] cases” or “if the state
court confronts a set of facts that are materially indistinguishable from a decision of [the
Supreme Court] and nevertheless arrives at a result different from [the Supreme
Court’s] precedent.” Lockyer, 538 U.S. at 73 (quoting Williams v. Taylor, 529 U.S. 362,
405-06 (2000), and citing Bell, 535 U.S. at 694.
A state court decision is an unreasonable application of clearly established
Supreme Court precedent, within the meaning of 28 U.S.C. § 2254(d), “if the state court
identifies the correct governing legal principle from [the Supreme Court’s] decisions but
unreasonably applies that principle to the facts of the prisoner’s case.” Lockyer, 538
U.S. at 74 (quoting Williams, 529 U.S. at 413). The “unreasonable application” clause
requires the state court decision to be more than incorrect or erroneous; the state
court’s application of clearly established law must be objectively unreasonable. Id.
(quoting Williams, 529 U.S. at 409).
To the extent that the state court’s factual findings are challenged, the
“unreasonable determination of fact” clause of § 2254(d)(2) controls on federal habeas

28
3

3ase 2:10-cv-01225-GMN-DJA Document 104 Filed 09/18/19 Page 4 of 17

1
2
3
4
5

review. E.g., Lambert v. Blodgett, 393 F.3d 943, 972 (9th Cir.2004). This clause
requires that the federal courts “must be particularly deferential” to state court factual
determinations. Id. The governing standard is not satisfied by a showing merely that the
state court finding was “clearly erroneous.” 393 F.3d at 973. Rather, AEDPA requires
substantially more deference:

6
.... [I]n concluding that a state-court finding is unsupported by substantial
evidence in the state-court record, it is not enough that we would reverse in
similar circumstances if this were an appeal from a district court decision.
Rather, we must be convinced that an appellate panel, applying the normal
standards of appellate review, could not reasonably conclude that the
finding is supported by the record.

7
8
9
10
11

Taylor v. Maddox, 366 F.3d 992, 1000 (9th Cir.2004); see also Lambert, 393
F.3d at 972.

12

13
14
15
16
17
18
19
20

Under 28 U.S.C. § 2254(e)(1), state court factual findings are presumed to be
correct unless rebutted by clear and convincing evidence. The petitioner bears the
burden of proving by a preponderance of the evidence that he is entitled to habeas
relief. Cullen, 563 U.S. at 181.

III.

Instant Petition
a. Claims raised on direct appeal
i. Ground 1

Lewis contends that the admission of prior bad act evidence violated his Sixth and
Fourteenth Amendment due process rights (ECF No. 43, pp. 7-10).

21

Generally, admission of evidence is a question of state law. State law errors do not

22

warrant federal habeas relief. Estelle v. McGuire, 502 U.S. 62, 67 (1991). Rather, a

23

petitioner must establish “whether [or not] the state proceedings satisfied due process.”

24

Holley v. Yarborough, 568 F.3d 1091, 1101 (9th Cir. 2009). In reviewing evidentiary

25

questions, the challenged evidence is not constitutionally suspect unless it is irrelevant

26

and has no probative value to questions at issue in the defendant’s case. Estelle, 502

27

U.S. at 68-69. In short, the admitted evidence must be “so extremely unfair that its

28
4

3ase 2:10-cv-01225-GMN-DJA Document 104 Filed 09/18/19 Page 5 of 17

1
2
3

admission violates ‘fundamental conceptions of justice.’” Dowling v. U.S., 493 U.S. 342
352 (1990).
Nevada Revised Statutes, §48.045(2) provides:

4
5
6
7

Evidence of other crimes, wrongs or acts is not admissible to prove
character of a person in order to show that he acted in conformity therewith.
It may be admissible for other purposes, such as proof of motive,
opportunity, intent, preparation, plan, knowledge, identity, or absence of
mistake or accident.

8

In order to admit other bad acts, the trial court must find that 1) the prior act is relevant

9

to the crime charged; 2) the act is proven by clear and convincing evidence; and 3) the

10

probative value of the evidence is not substantially outweighed by the danger of unfair

11

prejudice. See also Petrocelli, 101 Nev. 46, 51-52. The district court must conduct a

12

hearing outside the presence of the jury at which time the state must present its

13

justification for admission of the evidence and prove by clear and convincing evidence

14

that the defendant committed the prior acts, and the district court must weigh the probative

15

value of the proffered evidence against its prejudicial effect.

16

Lewis’ daughter Shii Shii testified at the Petrocelli hearing regarding prior bad acts.

17

Exh. 7, pp. 184-201. She stated that Lewis sexually abused her from when she was

18

age 8 until age 16, and she did not tell anyone because she was scared. Shii Shii said

19

that Lewis beat her mother frequently, punching, hitting, and kicking her. When she

20

was 9 or 10 Lewis pulled a gun on her mother; when she went to help her mother, Lewis

21

hit Shii Shii on the head with the gun. She testified that Lewis whipped her with a belt,

22

scarring her arms. She said Lewis would tell her that if she told anyone about the

23

sexual abuse he would shoot her and her mother.

24

Lewis’ daughter Memory also testified. Exh. 7, pp. 201-208. She stated that she

25

was afraid of her father because he was violent towards her mother, brother, his ex­

26

girlfriends, and she had seen him pull a gun on her brother. The court ruled that Shii

27

Shii’s testimony about her fear of her father would be permitted at trial. The court

28
5

:ase 2:10-cv-01225-GMN-DJA Document 104 Filed 09/18/19 Page 6 of 17

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18

viewed Memory’s testimony as vague with respect to whether she was afraid of her
father and ruled it inadmissible. Id. at 214.
At trial, the court issued a limiting instruction before Shii Shii testified about why she
did not tell anyone about the abuse for many years. Id. at 239. Shii Shii’s trial
testimony was similar to the Petrocelli hearing; she testified that Lewis pulled a gun and
knives on her mother, that he had hit her on the head with a gun and that he had
whipped her with a belt, scarring her arms. Id. at 239-242. She also stated that Lewis
had said if she told anyone about the sexual abuse that he would shoot her and her
mother. She testified that she continued to live with her father because she did not get
along with her mother either as her mother was “mean in her own way," she did not
think her mother wanted Shii Shii to live with her, and most of her brothers and sisters
lived with her father. Id. at 246-247. Shii Shii stated that she moved out of her father’s
house because he was beating her, and she was finally fed up. Id. at 253. Shii Shii told
her mother about the sexual abuse when she learned that Lewis was sexually abusing
her sister too. She testified that Lewis is still her father, and she loves him. Id. at 254256.
The Nevada Supreme Court rejected the challenge to the prior bad acts claim on
direct appeal:

19
20
21
22
23
24
25
26
27
28

Lewis also argues that the district court should not have allowed S.L.
[Shii Shii] to testify about Lewis' violence because the testimony adduced
at the Petrocelli hearing did not satisfy the [factors under Tinch v. State, 946
P.2d 1170 (Nev. 1985)]. We disagree. Under Tinch, a prior bad act is only
admissible if the trial court determines that "(1) the incident is relevant to
the crime charged; (2) the act is proven by clear and convincing evidence;
and (3) the probative value of the evidence is not substantially outweighed
by the danger of unfair prejudice." Here, S.L. testified that she was afraid of
Lewis; the evidence of Lewis’ violence toward her was relevant as to why
she did not tell anyone about Lewis' sexual abuse. S.L.'s testimony at the
Petrocelli hearing was sufficiently clear and convincing, and it was
corroborated by victim M.L.'s testimony at the hearing that Lewis could be
violent. The evidence was probative on why S.L. would conceal extensive
sexual abuse, and this probative value was not substantially outweighed by
the danger of unfair prejudice to Lewis. We therefore conclude the district
court did not err in this regard.
6

3ase 2:10-cv-01225-GMN-DJA Document 104 Filed 09/18/19 Page 7 of 17

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26

Exh. 24.
It cannot be said that the prior bad act evidence at issue was irrelevant and had no
probative value to questions at issue in Lewis’ case. Estelle, 502 U.S. at 68-69; U.S. v.
LeMay, 260 F.3d 1018, 1027 (9th Cir. 2001). Lewis has not demonstrated that the
Nevada Supreme Court’s decision was contrary to, or involved an unreasonable
application of, clearly established U.S. Supreme Court law, or was based on an
unreasonable determination of the facts in light of the evidence presented in the state
court proceedings. 28 U.S.C. § 2254(d). Accordingly, federal habeas relief is denied as
to ground 1.
ii. Ground 2
Lewis argues that he was deprived a full and fair opportunity to cross examine the
State’s witnesses about the alleged prior instances of violence in violation of his Fifth,
Sixth, and Fourteenth Amendment confrontation, due process and equal protection
rights (ECF No. 43, pp. 10-11).
Criminal defendants have the “right to confront and cross-examine witnesses and to
call witnesses" on their own behalf. Chambers v. Mississippi, 410 U.S. 284, 294 (1973).
The right to confront witnesses is a trial right and it is unclear to what extent this right
applies to pre-trial hearings. Pennsylvania v. Ritchie, 480 U.S. 39, 52 (1987).
Here, after the jury was selected, the State asked for a hearing outside of the jury’s
presence and advised the court that one of the counts that had been read to the jury
was incorrect. Exh. 5, pp. 158-159. The State mentioned that testimony would be
elicited at trial from Shii Shii and Memory that Lewis had guns and that weapons were
“prominent” around the house. Id. at 163-169. The defense strenuously objected and
urged that the State should have filed a pre-trial motion to admit evidence of prior bad
acts. The court noted that there had been several continuances and said that, while a
Petrocelli hearing was required, the court was unwilling to continue trial again. The

27
28
7

3ase 2:10-cv-01225-GMN-DJA Document 104 Filed 09/18/19 Page 8 of 17

1
2
3

following day, after the State had delivered its opening argument, the court conducted
the Petrocelli hearing discussed above in ground 1. Exh. 7, pp. 183-216.
Denying this claim on direct appeal, the Nevada Supreme Court reasoned:

4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26

Nothing in Petrocelli requires the hearing to take place before trial;
rather, the hearing should take place before the evidence of prior bad acts
is admitted, as it did in this case. While a pre-trial motion in limine by the
State would have been the preferred procedure, there was no prejudice
under the particular facts of this case. Lewis was aware of the substance
of the prior bad acts, as S.L. testified at the preliminary hearing that Lewis
was violent toward her. He does not contend that he had insufficient time
between the preliminary hearing and the trial to investigate the allegations.
Exh. 24.
Shii Shii testified at trial with specificity as to numerous incidences when Lewis
sexually assaulted her over a period of several years. Exh. 7, pp. 226-288. As to
Lewis’ violence, during the preliminary hearing she testified that Lewis would hit and
punch her for no reason, that he had thrown a fan, dishes, chairs and part of a water
cooler at her, and that he had ripped her pony tail out of her head and slammed her on
the couch. Exh. 1, pp. 55-56. Thus, Lewis had notice of testimony of his violent
behavior. Moreover, Lewis had the opportunity to cross-examine both Shii Shii and
Memory at the Petrocelli hearing. Lewis does not explain how a continuance would
have impacted such cross examinations. He has not shown any deprivation of his right
to call witnesses on his own behalf. He also has never specifically identified any
witness that would have contradicted Shii Shii’s testimony about prior violent acts.
This court concludes that Lewis has not shown that the Nevada Supreme Court’s
decision was contrary to, or involved an unreasonable application of, clearly established
U.S. Supreme Court law, or was based on an unreasonable determination of the facts in
light of the evidence presented in the state court proceeding. 28 U.S.C. § 2254(d).
Ground 2, therefore, is denied.

27
28
8

:ase 2:10-cv-01225-GMN-DJA Document 104 Filed 09/18/19 Page 9 of 17

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28

iii. Ground 3
Lewis also asserts that the cumulative effect of the trial court’s errors in allowing the
State to introduce the alleged bad acts and failing to provide Lewis with the opportunity
to investigate the alleged bad acts violated his Fifth, Sixth, and Fourteenth Amendment
due process and fair trial rights (ECF No. 43, p. 12).
The cumulative effect of multiple errors can violate due process and warrant habeas
relief where the errors have “so infected the trial with unfairness as to make the
resulting conviction a denial of due process.” Donnelly v. DeChristoforo, 416 U.S. 637,
643 (1974); Parle v. Runnels, 505 F.3d 922, 927 (9th Cir. 2007).
The Nevada Supreme Court held that no prejudicial error occurred. Exh. 24.
Especially in light of this court’s denial of grounds 1 and 2, the Nevada Supreme Court’s
decision was not contrary to, or involve an unreasonable application of, clearly
established U.S. Supreme Court law, and was not based on an unreasonable
determination of the facts in light of the evidence presented in the state court
proceeding. 28 U.S.C. § 2254(d). Federal habeas relief is denied as to ground 3.
b. Ineffective assistance of counsel claims
Ineffective assistance of counsel (IAC) claims are governed by the two-part test
announced in Strickland v. Washington, 466 U.S. 668 (1984). In Strickland, the
Supreme Court held that a petitioner claiming ineffective assistance of counsel has the
burden of demonstrating that (1) the attorney made errors so serious that he or she was
not functioning as the “counsel” guaranteed by the Sixth Amendment, and (2) that the
deficient performance prejudiced the defense. Williams, 529 U.S. at 390-91 (citing
Strickland, 466 U.S. at 687). To establish ineffectiveness, the defendant must show that
counsel’s representation fell below an objective standard of reasonableness. Id. To
establish prejudice, the defendant must show that there is a reasonable probability that,
but for counsel’s unprofessional errors, the result of the proceeding would have been
different. Id. A reasonable probability is “probability sufficient to undermine confidence in
the outcome." Id. Additionally, any review of the attorney’s performance must be “highly
9

::ase 2-10-CV-01225-GMN-DJA Document 104 Filed 09/18/19 Page 10 of 17

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26

deferential” and must adopt counsel’s perspective at the time of the challenged conduct,
in order to avoid the distorting effects of hindsight. Strickland, 466 U.S. at 689. It is the
petitioner’s burden to overcome the presumption that counsel’s actions might be
considered sound trial strategy. Id.
Ineffective assistance of counsel under Strickland requires a showing of deficient
performance of counsel resulting in prejudice, “with performance being measured
against an objective standard of reasonableness, . . . under prevailing professional
norms.” Rompilla v. Beard, 545 U.S. 374, 380 (2005) (internal quotations and citations
omitted). When the ineffective assistance of counsel claim is based on a challenge to a
guilty plea, the Strickland prejudice prong requires a petitioner to demonstrate “that
there is a reasonable probability that, but for counsel’s errors, he would not have
pleaded guilty and would have insisted on going to trial.” Hill v. Lockhart, 474 U.S. 52,
59 (1985).
If the state court has already rejected an ineffective assistance claim, a federal
habeas court may only grant relief if that decision was contrary to, or an unreasonable
application of, the Strickland standard. See Yarborough v. Gentry, 540 U.S. 1,5 (2003).
There is a strong presumption that counsel’s conduct falls within the wide range of
reasonable professional assistance. Id.
The United States Supreme Court has described federal review of a state supreme
court’s decision on a claim of ineffective assistance of counsel as “doubly deferential.”
Cullen, 563 U.S. at 190 (quoting Knowles v. Mirzayance, 129 S.Ct. 1411, 1413 (2009)).
The Supreme Court emphasized that: “We take a ‘highly deferential’ look at counsel’s
performance . . . through the ‘deferential lens of § 2254(d).’” Id. at 1403 (internal
citations omitted). Moreover, federal habeas review of an ineffective assistance of
counsel claim is limited to the record before the state court that adjudicated the claim on
the merits. Cullen, 563 U.S. at 181-84. The United States Supreme Court has

27
28
10

Case 2:10-cv-01225-GMN-DJA Document 104 Filed 09/18/19 Page 11 of 17

1
2

specifically reaffirmed the extensive deference owed to a state court's decision
regarding claims of ineffective assistance of counsel:

3

4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27

Establishing that a state court’s application of Strickland was
unreasonable under § 2254(d) is all the more difficult. The standards
created by Strickland and § 2254(d) are both “highly deferential,” id. at
689, 104 S.Ct. 2052; Lindh v. Murphy, 521 U.S. 320, 333, n.7, 117 S.Ct.
2059, 138 L.Ed.2d 481 (1997), and when the two apply in tandem, review
, 129 S.Ct. at 1420. The
is “doubly” so, Knowles, 556 U.S. at
Strickland standard is a general one, so the range of reasonable
129 S.Ct. at 1420. Federal
applications is substantial. 556 U.S. at
habeas courts must guard against the danger of equating
unreasonableness under Strickland with unreasonableness under §
2254(d). When § 2254(d) applies, the question is whether there is any
reasonable argument that counsel satisfied Strickland's deferential
standard.
Harrington, 562 U.S. at 105. “A court considering a claim of ineffective assistance of
counsel must apply a ‘strong presumption’ that counsel’s representation was within the
‘wide range’ of reasonable professional assistance.” Id. at 104 (quoting Strickland, 466
U.S. at 689). “The question is whether an attorney’s representation amounted to
incompetence under prevailing professional norms, not whether it deviated from best
practices or most common custom.” Id. (internal quotations and citations omitted),
i. Ground 4(a)
Lewis argues that trial counsel failed to investigate, interview or present several
potential defense witnesses (ECF No. 43, pp. 13-19).
At the evidentiary hearing on Lewis’ state postconviction claim that trial counsel
was ineffective for failing to call several witnesses, trial counsel Stacey Roundtree
testified. Exh. 45, pp. 5-24.

She testified that Andrea James, Shii Shii and Memory’s

mother, had stated in a police report that there had been some serious domestic
violence incidents between Lewis and his girlfriend Pamela McCoy. Counsel did not try
to contact McCoy because she did not think that McCoy would necessarily be a good
witness for Lewis in light of their volatile relationship and also because McCoy would not
necessarily have any knowledge of the sexual abuse which was alleged to have

28
11

ase 2:10-cv-01225-GMN-DJA Document 104 Filed 09/18/19 Page 12 of 17

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27

occurred in private. Counsel also stated that she did not have a good address for
McCoy and that it was her understanding that the State had not had success in locating
McCoy either. She stated that she had no recollection of being told that Max Sims, Jr.
would be a potential witness for Lewis and that no Max Sims contacted her or the
defense investigator. Lewis was out of custody for the 3 years leading up to trial. Lewis
never gave Roundtree a phone number or address for Charles Scott. Roundtree
testified that Lewis intimated that his sons would be beneficial witnesses for him. But at
the conclusion of the preliminary hearing, Roundtree went to speak with the sons; they
told her that they did not wish to be involved, they were there in support of their sisters,
and they suggested that they would not be favorable witnesses for Lewis. Lewis
persisted; Roundtree asked repeatedly for an address to give to her investigator, which
Lewis never provided. Roundtree also testified that she met with Lewis and his
girlfriend Mekedes Francisco numerous times. Francisco was close in age to Shii Shii,
and she and Shii Shii had been friends. Francisco maintained that Shii Shii was jealous
of Francisco and Lewis’ relationship. Roundtree stated that she and Lewis and
Francisco developed that jealousy as one of their theories of the case. However, when
Roundtree questioned Francisco at trial, Francisco surprised counsel and stated that
her relationship with Shii Shii was fine and that there was no problem.
The state district court had denied Lewis’ motion for appointment of counsel for
the postconviction proceedings, and thus he conducted his own cross-examination of
Roundtree. Id. at 25-55. He asked Roundtree if she recalled that he gave her the
names of Susan Warren and Jerica Warren as witnesses; Roundtree responded that
she did not recall those names or having that conversation with Lewis. Roundtree
stated that she had no recollection of Lewis giving her a list of witnesses with phone
numbers for some of them, but that if he did give her such a list, then either she or her
investigator would have tried to contact any witnesses. In response to Lewis’
questioning, she stated:

28
12

Case 2:10-cv-01225-GMN-DJA Document 104 Filed 09/18/19 Page 13 of 17

1

6

None of the people whose names you gave me - most of them and I never did figure out from you what would be their contribution . . .
.we can contact them to find out their contribution, but we can’t contact
them if we don’t have contact information, which I told you multiple times;
which is why I gave you my cell number. My investigator gave you his cell
number. And said if they’re going to help you, at the very least have them
call us ‘cause we’re not finding them. Bring them with you. . . . I’ll come
get them. We’ll go get them. We’ll do anything we can do to get your
witness, as I told you multiple times. But what we can’t do is find
someone with just a name and no valid number or address.

7

Id. at 33. Roundtree also testified that she would not have put on a character

2
3
4
5

8

defense because—to the extent it was even admissible—that would have opened the

9

door for the State to bring in other evidence, including the prior bad act evidence that

10

the defense had persuaded the court to exclude. She also explained that she and

11

Lewis discussed that fact many times in the years leading up to trial. Roundtree further

12

stated that Lewis’ sons even informed the district attorney that Lewis had been

13

threatening not to show up in court and had threatened others not to show up. Lewis

14

asked Roundtree why she did not let his brother, Max Sims, testify. She responded that

15

she never had an address for Sims and did not remember Lewis telling her that Sims

16

would be beneficial. She reiterated that she had had numerous conversations with

17

Lewis where she told him that if the people he mentioned really had information that

18

would help Lewis that he needed to bring them to her office or set a meeting anywhere,

19

but that “none of these people ever once over three years made a call, made a visit,

20

came with you, any of that.” Id. at 53.

21

Lewis then testified; he stated that McCoy and his brother would have testified

22

that Shii Shii and Memory wanted Lewis to get back together with their mother and that

23

the girls were sneaky, were liars, and tried to cause trouble between McCoy and Lewis.

24

Id. at 56-67. On cross-examination Lewis acknowledged that over the 3 years and 8

25

different trial settings these witnesses never contacted defense counsel in any way or

26

ever came to court. Id. at 64-67.

27
28

The Nevada Supreme Court affirmed the denial of this claim in Lewis’ state
postconviction petition:

13

Case 2:10-cv-01225-GMN-DJA Document 104 Filed 09/18/19 Page 14 of 17

1

9

Appellant failed to demonstrate deficiency or prejudice. At the
evidentiary hearing, counsel testified that appellant provided invalid
contact information for some potential witnesses and that others who were
contacted were unwilling to aid in the defense. Counsel further testified
that she would have neither interviewed nor called to testify those whom
appellant identified as simple character witnesses because, for tactical
reasons, she was unwilling to put on a character defense. Counsel also
testified to extensive trial preparation with the defense witness and stated
that she was surprised when the witness changed her story under oath.
We therefore conclude that the district court’s findings of fact were
supported by substantial evidence such that the district court did not err in
denying appellant’s petition. Moreover, appellant failed to demonstrate a
reasonable probability of a different outcome at trial had counsel called the
witnesses to testify.

10

Exh. 55. Lewis’ testimony regarding how potential defense witnesses would have

2
3
4
5
6
7
8

11

testified lacks credibility. Moreover, even assuming those witnesses would have

12

testified as Lewis claimed, most of such testimony would have been inadmissible,

13

nonprobative as to innocence or guilt, and/or would have permitted the State to

14

introduce damaging evidence. He has not shown a reasonable probability of a different

15

trial outcome if these witnesses had testified. Lewis has not demonstrated that the

16

Nevada Supreme Court’s decision affirming the denial of this claim was contrary to, or

17

involved an unreasonable application of, Strickland, or was based on an unreasonable

18

determination of the facts in light of the evidence presented in the state court

19

proceeding. 28 U.S.C. § 2254(d). The court accordingly denies federal ground 4(a).

20
21
22
23

ii. Ground 4(b)
Lewis contends that trial counsel failed to interview the alleged victims prior to
trial (ECF No. 43, pp. 19-20).
This ground was procedurally defaulted in Lewis’ third state postconviction petition

24

(see ECF No. 93). In its order on respondents’ motion to dismiss, this court deferred a

25

decision as to whether Lewis could demonstrate cause and prejudice to excuse the

26

procedural default. Id. Lewis argues that he can do so under the equitable rule

27

established in Martinez v. Ryan, 566 U.S. 1, 12-14, 16-18 (2012). See also Trevino v.

28
14

:ase 2:10-cv-01225-GMN-DJA Document 104 Filed 09/18/19 Page 15 of 17

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27

Thaler, 569 U.S. 413, 423 (2013). Under Martinez, “cause” to excuse the default may be
found:
[W]here (1) the claim of “ineffective assistance of trial counsel” was a
“substantial” claim; (2) the “cause” consisted of there being “no counsel” or
only “ineffective” counsel during the state collateral review proceeding; (3)
the state collateral review proceeding was the “initial” review proceeding in
respect to the “ineffective-assistance-of-counsel claim”; and (4) state law
requires that an “ineffective assistance of trial counsel [claim] ... be raised
in an initial-review collateral proceeding.”
Trevino, 569 U.S. at 423, quoting Martinez, 566 U.S. at 14, 17.
Lewis was not represented by counsel in the state proceedings; thus, the remaining
question is whether the claim is “substantial.” Martinez, 566 U.S. at 14. A procedurally
defaulted ineffective assistance of counsel claim is not substantial unless the petitioner
can establish both a deficient representation by trial counsel and prejudice under
Strickland. Lopez v. Ryan, 678 F.3d 1131, 1138 (9th Cir. 2012).
This court agrees with respondents that ground 4(b) is largely conclusory. Lewis
does not identify any additional evidence that defense counsel would have uncovered
has she interviewed his daughters. Notably, Roundtree could not compel the daughters
to meet with her, but in a July 2005 file memorandum she wrote that she had asked
Lewis to bring his daughters in to meet with her, and he had said that he would try.
Exh. 75. Moreover, the defense cross-examined the daughters at the preliminary
hearing. Lewis makes a passing reference in this petition that Shii Shii may have
recanted at some point. In a September 2004 file memorandum Roundtree wrote “the
tape of a potential recantation is a bust” because it was indecipherable. Exh. 65.
Nothing in the record suggests that interviewing the daughters would have revealed any
exculpatory evidence. Instead, they testified at trial to years of sexual abuse. They
were cross-examined at trial, including about their prior statements. Lewis argues at
length that Roundtree should have interviewed the daughters because they continued to
have contact with him and visit him after he was charged and up to trial, which he
argues calls their credibility into question. But Roundtree cross-examined the daughters

28
15

Case 2:10-cv-01225-GMN-DJA Document 104 Filed 09/18/19 Page 16 of 17

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

about their past and current relationships with their father. Lewis has not specifically or
credibly identified what an impeachment interview with the daughters would have
yielded that would have led to a reasonable possibility of a different outcome at trial. He
simply has not demonstrated that this is a substantial claim of ineffective assistance of
trial. Thus, he has also failed to demonstrate that he could satisfy Strickland’s ineffective
assistance of counsel standard. Lewis is not entitled to federal habeas relief on ground
4(b).
The petition, therefore, is denied in its entirety.
IV.

Certificate of Appealability

This is a final order adverse to the petitioner. As such, Rule 11 of the Rules
Governing Section 2254 Cases requires this court to issue or deny a certificate of
appealability (COA). Accordingly, the court has sua sponte evaluated the claims within
the petition for suitability for the issuance of a COA. See 28 U.S.C. § 2253(c); Turner v.
Calderon, 281 F.3d 851, 864-65 (9th Cir. 2002).
Pursuant to 28 U.S.C. § 2253(c)(2), a COA may issue only when the petitioner "has
made a substantial showing of the denial of a constitutional right." With respect to
claims rejected on the merits, a petitioner "must demonstrate that reasonable jurists
would find the district court's assessment of the constitutional claims debatable or
wrong." Slack v. McDaniel, 529 U.S. 473, 484 (2000) (citing Barefoot v. Estelle, 463
U.S. 880, 893 & n.4 (1983)). For procedural rulings, a COA will issue only if reasonable
jurists could debate (1) whether the petition states a valid claim of the denial of a
constitutional right and (2) whether the court's procedural ruling was correct. Id.
Having reviewed its determinations and rulings in adjudicating Lewis’ petition, the
court finds that none of those rulings meets the Slack standard. The court therefore
declines to issue a certificate of appealability for its resolution of any of Lewis' claims.

26
27
28
16

• :ase 2:10-cv-01225-GMN-DJA Document 104 Filed 09/18/19 Page 17 of 17

1
2
3
4
5
6

V.

Conclusion

IT IS THEREFORE ORDERED that the fourth-amended petition (ECF No. 43) is
DENIED in its entirety.
IT IS FURTHER ORDERED that a certificate of appealability is DENIED.
IT IS FURTHER ORDERED that the Clerk shall enter judgment accordingly and
close this case.

7
8
9

DATED: 18 September 2019.

10

Ul

GLORJA/M.'NAVARRO-^
UNITED STATES DISTRICT JUDGE

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
17

1
2
3
4

5

RENE L. VALLADARES
Federal Public Defender
State Bar No. 11479
DEBRA A. BOOKOUT
Assistant Federal Public Defender
Florida State Bar No. 968196
411 E. Bonneville, Ste. 250
Las Vegas, Nevada 89101
(702) 388-6577
(Fax) 388-6261

6
Attorneys for Petitioner
7

8
UNITED STATES DISTRICT COURT

9

DISTRICT OF NEVADA

10

11
12

WILLIE RAY LEWIS,

2:10-cv-01225-PMP-CWH

Petitioner,

13

Declaration of Mary James

14

vs.

15

STATE OF NEVADA, et al.,

16

Respondents.

17
18

19 I, Mary James, declare as follows:
20

1.1 am related by marriage to Andrea James, mother of Willie Ray Lewis’ daughters,

21

Shii Shii and Memory Lewis. My husband, Charles James, is Andrea James’ uncle. I have known

22

Shii Shii and Memory Lewis since they were bom.

23

2. Approximately one year after Willie Ray Lewis was convicted of sexually

24

assaulting his daughters, Shii Shii Lewis was at my home, braiding my hair. As she braided my hair,

25

Shii Shii told me she lied about the sexual abuse, and that her father did not assault or molest her.

26

Shii Shii then told me she loved her father and wished she could tell someone she lied, but was afraid

27

of getting in trouble for not being truthful with police or in court. Shii Shii told me Andrea James

28

pushed her into making up allegations against Willie Ray Lewis.

(/}fpen<4tcxj5-C
EkkfUt-j- - c,

i>e

1

3. Less than a year later, Shii Shii was again at my home, braiding my hair. Shii Shii

2

again said she was sorry she lied about her father sexually assaulting her, and again said she was too

3

scared of being punished to come forward and tell the truth.

4

5
6
7

DATED this

/

day of

2011.

8

9
10
11
12
13
14
15
16
17
18
19
20

21
22
23
24

25
26
27
28

me.

-

o/
■&'[ 2

^ )

}

REQUEST FOR INVESTIGATION
TO:

r
t Harold Kendall i

DATE:

‘September 10, 2004

FROM:

Stacey Roundtree

RETURN DATE:

September 30, 2004 ?

RE:

Willie Ray Lewis

NEXT COURT DATE: October 19, 2004

CASE#: ; C193445XJ

P.D. #:

F-2003-03887

HAROLD
This case is not resolving. To my knowledge, /no investigation is complete, and so I’m sending
an urgent request. Please refer to my earlier request. Those things need to be completed before
I can decide what needs to be done next.
Client is out of custody, but has several numbers in which to contact him. See Justware notes.
The tape of the potential recantation is a bust, as noone I’ve found can sufficiently understand
the language.
However, my belief is,that we just need to speak to the victims who ought to be cooperative with
us, in that they^ still Contact their dad. We need to talk to family and others, Please see
investigative previous memo.
I may need to submit a witness list, (probably will) and have a limited time period in which to do
that. Please do what you can to facilitate. We should meet soon regarding this case. Let me
know a good time, after some preliminary investigation is done.
sr

'Af Pen dices - D' ockilsi-t- - D

/

i

MEMORANDUM
OFFICE OF THE CLARK COUNTY PUBLIC DEFENDER

Public Defender
Philip J. Kohn
Assistant Public Defender
Daren B. Richards

INVESTIGATION DIVISION

July 25, 2005
TO:

STACEY ROUNDTREE

CLIENT:

WILLIE RAY LEWIS

FROM:

FRED SAENZ

CASE NO.:

C193445X

SUBJECT:

MEETING WITH CLIENT

On July 25, 2005 at approximately 9:00 a.m. Willie Ray Lewis and his girlfriend arrived as per an
earlier arrangement. I had also asked Mr. Lewis to bring in his daughters Shii Shii and Memory; /
however he was unable to reach them. I asked Mr. Lewis how many children he and Andrea James have together. He told me that they have
six. Mr. Lewis said that Justin, who is 15 years old, is actually the biological son of his cousin who
had an affair with his ex-wife, Andrea.
Mr. Lewis currently resides with Mekedes Fransiscos and they have been together for the past 4years.
Mr. Lewis believes that his ex-wife, Andrea put Shii Shii and Memory up to the allegations. Mr.
Lewis said that the allegations are totally untrue and both of his daughters visit him and stay with him
on occasion. Although Shii Shii is over 18, Memory is still a minor and her mother, Andrea allows her
to visit and stay over at Mr. Lewis’s house. Mr. Lewis said that if he actually molested his daughters
^an^^dreaJjeliev^this^^w^wouMA^j^^allp^er^pu^lgf^jdaaghLer to seeJien.father.^Mggg^.
Mr. Lewis believes that Andrea and Shii Shii were initially upset with him when he started seeing
Mekedes. Mr. Lewis stated that he met Mekedes though his daughter Shii Shii. Both Shii Shii and
Mekedes went to the same high school, although Mekedes was two years ahead of Shii Shii.
Mr. Lewis also told me that at his preliminary hearing, his one of his sons, Willie Jr. told his father that
the Distxict 'Attomey ^ve hfrn^$35 to come to court, although he never ended up testifying.
I asked Mr. Lewis if he could ask both Shii Shii and Memory if they would come in and speak with me
about his case. Mr. Lewis said that he will attempt to reach both of them and bring them in to speak to
me.

Willie Ray Lewis
Cell 702 649-5507
Message 702 440-7698

. ExkkM- ~£

I

„ Page 1

Harold Kendall - Request Investigation.dr.:

REQUEST FOR INVESTIGATION

TO:

Harold Kendall

DATE:

June 4, 2004

FROM:

Stacey Roundtree - Pd

RETURN DATE:

June 30,2004

RE:

Willie Ray Lewis

NEXT COURT DATE: July 29, 2004

CASE#:

C193445X

P.D. #:

F-2003-03887

FACTS:
DEFENDANT IS CHARGED with raping his two daughters. See PHT and police reports. He is
out of custody, and adamantly denies, (The oldest child has now recanted. We have a small tape ?
on which is the recantation. Bruce is supposed to be converting it to regular cassette size. The
D.A. is very reasonable (Hendricks)[and has made a very reasonable offer which was refused. ;

roo offcefr tuos

laVUt

TO DO:

dvAHgifr- TfrAal
TqJcJre^.

rTt> Vregirv rv. VHcOo-tUaA

The mom (and children) were initially very upset because defendant left the relationship with
their mom (she was a pretty unfit mother to begin with) and has become involved with a much
younger woman. FIRST: Really, you must speak to my client and his significant other. They can
inform you aboutflie kids, the problems, the family dynamics, etc. Speak also to all of
defendant’s children who were living with him at the time of this allegation.

K V/vfc-'

<A

A

"Weneed to listen to the recantation tape/1 have been tiying for months to find a way to listen to. )
it. Various people in the office say someone else has am in-cassette tape player, but I’va^et-tQ^
4jnd ong.^'tJnce we ascertain everyone’s current position about whether^ or ijgt this abuse
occurred, we can plan trial defense and strategy.
Remember defendant is out of custody. We tried to polygraph him and he was “off the charts in
both directions” which I believe meant he had been drinking. (I think he is an alcoholic who is
functional, because you wouldn’t know it by talking to him, but he always has a strange odor if
you know what I mean.).
sr
cc: Naomi Conaway

/

/

MEMORANDUM
OFFICE OF THE CLARK COUNTY PUBLIC DEFENDER

Public Defender
Philip J. Kohn
Assistant Public Defender
Daren B. Richards

July 22, 2005
TO:

FRED SAENZ

CLIENT:

WILLIE RAY LEWIS

FROM:

S. ROUNDTREE

CASE NO.:

C193445X

SUBJECT:

INVESTIGATION

Willie called me, but I was not at my desk. He can be reached at the number with the static, but an
alternative number is 649-5507.
In addition to interviewing him and his fiance’, please make sure we know the contributions of all state
witnesses. Especially the victims and the mom. Pin them down on dates, exact abuse, who else was
present in the house (witnesses) and then speak with those witnesses to see what they remember
happening, if anything. Also, have the alleged victims spoken with the witnesses (bothers, etc.) about
the alleged abuse at the time it was going on.
I need to file a witness list soon. Thanks in advance..

v

ft A A. \
Ao Vo.

>

Dase 2:10-cv-01225-PMP -CWH Document 43

09/1R/19

Page 14 of 22

1

a list of potential defense witnesses. (Ex. 67 Lewis gave Ms. Roundtree the names of the following

2

potential witnesses: l^aTo^^^ggj^CtoheScottj Raymond Ford. Mack Sims, Domanick Simpson.

3

Willie Lewis Jr. (son), Justin Lewis (son), Susie WarrenvJerric^

4

Terrance
Simon,
...........
- - -r

5

Jones. (Id.) Lewis also provided jJign^numbers ^nd addresseMor sQoie oJjLese.witnesses ^

6
7

Mary and Charles James,
iel

Ms. Roundtree’s case notes and memorandums to and from assigned investigators reveals that
on

8

-----1—:
In fact, despite her testimony to the contrary at the evidentiary hearing, it appears that no attempts were

9

made to contact any of these witnesses. Instead, Ms. Roundtree appeared to rely on the State to advise

10

her of the witness’ whereabouts and whether or not they could provide beneficial information on Lewis ’

11

behalf. Ms. Roundtree’s conduct in this regard was clearly deficient and prejudiced Lewis.

12

13

1.

Mack Sims

Mack Sims is Lewis’ brother and Lewis advised that Mr. Sims would testify that he knew that

14 the girls, Shii Shii and Memory, often lied in order to get their way. (Ex. 28, p. 9(a)-((b).) Lewis
15 provided a phone number for Mr. Sims. (Ex. 67.)
16

Ms. Roundtree testified at the evidentiary hearing that she did not remember Mack Sims as being

17

abeneficial witness or evenbeing advised that he could provide exculpatory information. (Ex. 45, p. 15,

18

50.) She then, contradictorily testified that even “if’ Lewis had told her of Mack Sims ’ or his potential

19

input, Lewis did not provide a good address for him. (Id., 15-16, 50.) Lewis did not provide Ms.

20

Roundtree with Mr. Sims address, instead he gave her a phone number. (Ex. 67.)Mny good investigator

21

with a name and phone number should be able to locate a witness.
/

•

22

Ms. Roundtree blatantly misrepresented her actions in investigating these potential witnesses inv

23

general and specifically in regard to Mr. Sims. The record shows that on May 20,2001, Lewis proviflsd-

24 Ms. Roundtree wifiiMr^SimsMxumbe^(Ex. 67.) NeitheMiercase^not^norJjgyj^^^g^^jia^
25
26

show that any attempt was made to find and interview Mr. Sims. (Ex. 65-66, 68-77.)
2.

Charlie Scott

27

Charlie Scotti^LewisMousin and he would have testified that his four daughters adored Lewis

28

and never had problems of a sexual nature with him. (Ex. 28, p. 9(b-9(c).) He would also testify that he
14

Ex nrarr-AiC

Admonition to the jury:

Ladies and gentlemen:
Yesterday when the clerk read the Information to you there was a mistake. There was a
typographical error in count 24 and some language was read by the clerk that should not have
been read to the jury.
All of you agreed when we were selecting a jury that you would follow the instructions of
the court. At this time I ask you to follow my instructions and to disregard any of the mistaken
language that was read to you by the clerk as it pertains to count 24.
Further, at this time I am going to ask the clerk to read count 24 to you again. I, as well
as the parties, have reviewed count 24. I ask that you consider count 24 as it will now be read to
you by the clerk of the court and to disregard what was read to you by the clerk yesterday.

^pyu.a\

uV\-\V ft ApoMA,

■go (a
\T\p iQiP\popA

A.O.

s nTsPv

o.

VA

WxO.y.Xov'A pfc WvQ ^ .CWVXA- C\V\cV
~WvP , C\cySP , /(vW\'cgMss,

2

Wo

n. f A g.V.W qfr'P iWt^a WcA gA<5-sK

/

EXU-1311-^

f

